  Report No. D-2009-100              September 22, 2009




Afghanistan Security Forces Fund Phase III - Accountability
             for Equipment Purchased for the
                Afghanistan National Police
Additional Information and Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
ANP                           Afghanistan National Police
ARSIC                         Afghanistan Regional Security Integration Command
ASF                           Afghanistan Security Forces
CJ                            Combined Joint
CSTC-A                        Combined Security Transition Command–Afghanistan
DA                            Department of the Army
MEL                           Master Equipment List
MoI                           Ministry of Interior
U.S.C.                        United States Code
USCENTCOM                     U.S. Central Command
VIN                           Vehicle Identification Number
                                    INSPECTOR GENERAL
                                   DEPARTMENT OF DEFENSE
                                      400 ARMY NAVY DRIVE
                                 ARLINGTON, VIRGINIA 22202-4704




                                                                                September 22, 2009

MEMORANDUM FOR COMMANDER, U.S. CENTRAL COMMAND
               COMMANDING GENERAL, COMBINED SECURITY TRANSITION
                 COMMAND-AFGHANISTAN

SUBJECT: Afghanistan Security Forces Fund Phase III - Accountability for Equipment
         Purchased for the Afghanistan National Police (Report No. D-2009-l 00)


We are providing this report for review and comment. We considered management comments on
a draft of this report in preparing the final report.

DoD Directive 7650.3 requires that all recommendations be resolved promptly. U.S. Central
Command comments on the draft report were not responsive to Recommendation B.2. However,
as a result of those comments, we revised Recommendation B.2 to clarify the intent of the
recommendation. Therefore, we request that the Commander, U.S. Central Command provide
additional comments on Recommendation B.2. by October 2,2009.

The Combined Security Transition Command-Afghanistan comments confonned to the
requirements of DoD Directive 7650.3 and left no unresolved issues. Therefore, additional
comments from the Combined Security Transition Command-Afghanistan are not required.

If possible, send your comments in electronic format (Adobe Acrobat file only) to
audj&oo@dodig.mil. Copies of your comments must have the actual signature of the authorizing
official for your organization. We are unable to accept the / Signed / symbol in place of the actual
signature. If you arrange to send classified comments electronically, you must send them over the
SECRET Internet Protocol Router Network (SIPRNET).

We appreciate the courtesies extended to the staff. Please direct questions to me at (703)
604-8905 (DSN 664-8905).




                                             ;(:£~
                                             Principal Assistant Inspector General
                                                 for Auditing
Report No. D-2009-100 (Project No. D2007-D000LQ-0161.006)                  September 22, 2009


               Results in Brief: Afghanistan Security Forces
               Fund Phase III – Accountability for
               Equipment Purchased for the Afghanistan
               National Police
What We Did                                                 and accurate property records for vehicles,
                                                            radios, and laptop computers;
We determined whether the Combined Security
                                                        x   develop and implement standard operating
Transition Command-Afghanistan (CSTC-A)
                                                            procedures for the distribution of ANP
could account for equipment purchased with the
                                                            radios;
Afghanistan Security Forces (ASF) Fund to
support the Afghanistan National Police (ANP).          x   develop and implement controls to prevent
We also determined whether CSTC-A properly                  the improper use of ASF-funded equipment
transferred accountability for the equipment to             intended for the ANP;
the ANP.                                                x   conduct an investigation to locate the
                                                            89 missing computers and determine the
                                                            cause for the discrepancy; and
What We Found                                           x   develop and implement a process to transfer
We identified internal control weaknesses in                accountability for equipment to the
accounting for equipment provided to the ANP.               Afghanistan Government.
Specifically, CSTC-A did not have adequate
receiving and inventory controls and could not          The Commander, U.S. Central Command
account for all vehicles, radios, and computers         should develop and issue formal guidance on
purchased for the ANP. In addition, 12 laptop           the proper use of ASF-funded equipment.
computers purchased with ASF funds and
intended for issue to the ANP are currently             Management Comments and
being used by contractor staff.
                                                        Our Response
We also identified internal control weaknesses          The Commanding General, CSTC-A agreed
related to the turnover of equipment to the ANP.        with all recommendations except one.
CSTC-A did not formally transfer vehicles,              Specifically, the Commanding General only
radios, or computers to the Afghanistan                 partially agreed with our recommendation
Government. CSTC-A transferred equipment to             requiring vehicle identification numbers to be
the ANP using U.S. Department of the Army               included on DD Forms 250. However, CSTC-A
hand receipt forms rather than officially               actions met the intent of our recommendation
transferring ownership and accountability for           and no additional comments are required.
equipment to the ANP.
                                                        The Commander, U.S. Central Command did
What We Recommend                                       not agree with our recommendation to issue
The Commanding General, CSTC-A should:                  formal guidance on the proper use of equipment
                                                        purchased for support of the ANP. As a result
x require that vehicle contracts call for vehicle
                                                        of the Commander’s comments we revised the
   identification numbers to be included on
                                                        recommendation to clarify its intent. Additional
   each DD Form 250 to document receipt;
                                                        comments are required by October 2, 2009, as
x develop and implement formal standard
                                                        outlined in the table on the back of this page.
   operating procedures to prepare complete


                                                    i
Report No. D-2009-100 (Project No. D2007-D000LQ-0161.006)            September 22, 2009

Recommendations Table
Management                                     Recommendations   No Additional
                                               Requiring Comment Comments Required
Commander, U.S. Central Command                B.2.
Commanding General, Combined Security                            A.1., A.2., A.3., B.1.,
Transition Command-Afghanistan                                   C.

Please provide comments by October 2, 2009.




                                          ii
Table of Contents

Results in Brief                                                        i

Introduction                                                           1

       Objectives                                                      1
       Background                                                      1
       Review of Internal Controls                                     3

Finding A. Receiving and Inventory Controls for Vehicles               5

       Management Actions                                              8
       Recommendations, Management Comments, and Our Response          9

Finding B. Receiving and Inventory Controls for Radios and Computers   11

       Management Actions                                              15
       Recommendations, Management Comments, and Our Response          16

Finding C. Transfer of Equipment to the Afghan Government              18

       Management Actions                                              19
       Recommendation, Management Comments, and Our Response           19

Appendices

       A.   Scope and Methodology                                      21
       B.   Prior Coverage                                             23
       C.   Other Matters of Interest                                  24
       D.   Inventory Control Guidance                                 25

Management Comments

       U.S. Central Command                                            26
       Combined Security Transition Command-Afghanistan                27
Introduction
Objectives
Our objectives for this audit were to determine whether organizations in Southwest Asia
given the responsibility by the U.S. Central Command (USCENTCOM) for managing the
Afghanistan Security Forces (ASF) Fund properly accounted for the goods and services
purchased using the ASF Fund and whether the goods and services purchased were
properly delivered to the ASF. See Appendix A for a discussion of the scope and
methodology. See Appendix B for prior coverage.

Background
This report is part of a three-phase audit of the ASF Fund. As of June 30, 2008, about
$15.3 billion had been appropriated to the ASF Fund through six public laws: 109-13,
109-234, 109-289, 110-28, 110-161, and 110-252.1 For this report, we reviewed the
procedures and systems that the Combined Security Transition Command – Afghanistan
(CSTC-A) used to account for equipment purchased with ASF funds and intended for
transfer to the Afghanistan National Police (ANP).

In the first phase of our audit (discussed in DoD IG Report No. D-2008-012,
“Distribution of Funds and the Validity of Obligations for the Management of the
Afghanistan Security Forces Fund – Phase I,” November 5, 2007), we determined that
DoD distributed $4.7 billion of budget authority appropriated by Public Laws 109-13,
109-234, and 109-289 for the ASF Fund in compliance with provisions of the three
public laws and appropriations law.

During the second phase (discussed in DoD IG Report No. D-2009-050, “Distribution of
Funds and the Validity of Obligations for the Management of the Afghanistan Security
Forces Fund Phase II,” February 5, 2009), we validated that DoD obligated $1.3 billion
of ASF funds to assist the ASF in accordance with Public Laws 109-13, 109-234, and
109-289 and with appropriations law.

In this third phase, we have addressed the accountability for real property construction,
weapons, vehicles, radios, and computers provided to support the ASF. This report
addresses accountability for ASF-funded equipment – specifically, vehicles, radios, and
computers purchased in support of the ANP.




1
  The six public laws are: Public Law 109-13, “Emergency Supplemental Appropriations Act for Defense,
the Global War on Terror, and Tsunami Relief, 2005”; Public Law 109-234, “Emergency Supplemental
Appropriations Act for Defense, the Global War on Terror, and Hurricane Recovery, 2006”; Public
Law 109-289, “Department of Defense Appropriations Act, 2007”; Public Law 110-28: “U.S. Troop
Readiness, Veterans’ Care, Katrina Recovery, and Iraq Accountability Appropriations Act, 2007”; Public
Law 110-161, “Consolidated Appropriations Act, 2008”; and Public Law 110-252, “Supplemental
Appropriations Act, 2008.”


                                                  1
Afghanistan Security Forces Fund
Public Laws 109-13, 109-234, 109-289, 110-28, 110-161, and 110-252 appropriated
funds for the security forces of Afghanistan. The funds were for the provision of
equipment; supplies; services; training; and facility and infrastructure repair, renovation,
and construction. This report focuses on the equipment portion of the ASF Fund
appropriation.

Roles and Responsibilities for ANP Force Generation
USCENTCOM is responsible for working to promote development and cooperation
among nations to establish security and stability in its area of responsibility. Afghanistan
is one of the countries within the USCENTCOM area of responsibility. USCENTCOM,
through its subordinate command CSTC-A, is working with the Government of
Afghanistan to build up the ASF, which includes the ANP. The CSTC-A mission is to
plan, program, and implement force generation that establishes an enduring, self-
sustaining capability within the ASF.

CSTC-A officially assumed the lead U.S. role in reforming the ANP on July 12, 2005.
Entry-level training is conducted at the Central Training Center in Kabul or at one of
seven regional training centers in Kandahar, Herat, Gardez, Mazar-e-Sharif, Konduz,
Jalalabad, and Bamyan. After completing training, Afghan recruits may join one of
several police organizations (uniformed, border, civil order, counternarcotics, criminal
investigation, or counterterrorism). The plan for the ANP is to establish a force of
82,000 personnel capable of operating countrywide. Approximately 75,000 ANP
personnel are already trained and in place.2

CSTC-A Organizational Structure
CSTC-A has aligned its personnel and resources into eight operating divisions. The eight
divisions are called “combined joint” (CJ) because several perform their function using a
mix of U.S. military personnel and international forces. Figure 1 shows the eight
divisions.3




2
  ANP personnel levels were taken from the “United States Plan for Sustaining the Afghanistan National
Security Forces,” June 2008, a report required by the 2008 National Defense Authorization Act
(Section 1231, Public Law 110-81).
3
  An additional division for engineering (CJENG) provides oversight of real property construction.


                                                   2
                                 CSTC-A Commanding General


                  CJ1 - Personnel                                 CJ5 - Plans

                 CJ2 - Intelligence                         CJ6 - Communications

                  CJ3 - Operations                     CJ7 - Force Integration & Training

                  CJ4 - Logistics                         CJ8 - Comptroller & Programs

               CJENG - Engineering

                              Figure 1. CSTC-A Operating Divisions

The Logistics (CJ4) and Communications (CJ6) Divisions (highlighted in Figure 1) are
responsible for maintaining DoD property accountability systems for all vehicles, radios,
and computers received in Afghanistan and intended for the ANP. The Logistics
Division is required to prepare and retain property books for all vehicles. It also monitors
whether the vehicles are used for lawful purposes and uses teams of mentors4 to teach the
ANP how to independently account for, maintain, and secure the vehicles. Similarly, the
Communications Division provides comprehensive ANP communications development
throughout Afghanistan. This ranges from tracking all radios and related equipment
received in Afghanistan to fielding radio installation teams to ANP facilities in all
Afghan provinces. The Communications Division is also responsible for computers
intended for the ANP. To perform their assigned functions, both divisions rely heavily
on contractor personnel. See Appendix C for a discussion of the lack of property books
for ANP regional units.

Guidance on Inventory Control
U.S. law, DoD Instructions, and Army Regulations provide guidance requiring all
persons entrusted with the management of Government property to maintain adequate
controls and accountability for property under their control. See Appendix D for the
guidance concerning inventory control.

Review of Internal Controls
We determined that internal control weaknesses in CSTC-A property accountability
systems existed as defined by DoD Instruction 5010.40, “Managers’ Internal Control
(MIC) Program Procedures,” January 4, 2006. CSTC-A did not have adequate receiving
and inventory controls to account for all vehicles, radios, and laptop computers acquired
for the ANP. In addition, CSTC-A did not have a formal process to officially transfer
accountability for equipment to the Afghanistan Government. Implementing all

4
    Mentors are DoD or contractor personnel serving as advisors to the ASF.


                                                      3
recommendations will improve the internal controls over the receipt of equipment in
Afghanistan, its use by the ANP, and its official transfer to the Afghanistan Government.
We will provide a copy of this report to the senior CSTC-A official responsible for
internal controls.




                                            4
Finding A. Receiving and Inventory Controls
for Vehicles
CSTC-A did not have complete property records for vehicles purchased for the ANP.
CSTC-A had not effectively implemented receiving and inventory controls to ensure
accountability for all vehicles purchased for the ANP. As a result, DoD has no assurance
that vehicles purchased for the ANP were received or that ANP units received the
quantity or type of vehicles ordered.

Vehicles Purchased by CSTC-A
CSTC-A used ASF funds to order over 8,221 light tactical vehicles worth about
$189.0 million from a contractor for delivery to sites in Afghanistan. In total 7,948 light
tactical vehicles had been received at the Coprin Lot in Kabul as of March 9, 2008.

Receiving Controls for Vehicles
The Coprin Lot in Kabul is the primary receiving and storage location for all vehicles
intended for the ANP. The Coprin Lot is operated by a vehicle storage contractor that is
also paid to maintain property records for vehicles received at the lot, process them for
delivery, and then help transfer them to the ANP. The vehicle storage contractor
prepared and updated the accountable property records for all vehicles at the Coprin Lot.
The vehicle storage contractor used the vehicle identification number (VIN) as the
primary identifier for each vehicle.

Shipment and Tracking of Accepted Vehicles
DOD officially accepts the vehicles destined for the ANP at a contractor facility in
Thailand. The vehicles are accepted by use of a DD Form 250, “Material Inspection and
Receiving Report,” which is signed by a Defense Contract Management Agency
representative.

Receipt of Vehicles
We did not identify a point within the vehicle receiving process at which the vehicle
storage contractor or CSTC-A personnel reconciled the VINs of all vehicles received at
the Coprin Lot to the DD Forms 250 that were used to authorize payment for the vehicles
ordered and shipped from the subsidiary contractor facility. Reconciliation could not be
accomplished because the DD Forms 250 prepared by the subsidiary contractor, during
vehicle acceptance by the Defense Contract Management Agency did not contain VIN
information. Instead, the forms contained serial numbers for the containers used to ship
the vehicles. Without an effective VIN reconciliation, vehicles intended for the ANP that
become lost or stolen during shipment may not be identified or recovered.

Inventory Controls for Vehicles
CSTC-A inventory controls did not ensure all vehicles purchased with ASF funds and
issued to the ANP were accounted for. DoD Instruction 5000.64, “Accountability and


                                             5
Management of DoD-Owned Equipment and Other Accountable Property,” November 2,
2006, states that “accountable property records shall be established for all property
purchased, or otherwise obtained, having a unit acquisition cost of $5,000 or more.” We
performed site visits at CSTC-A storage facilities in the Kabul area, as well as at ANP
units in the Kabul, Balkh, Paktia, Kandahar, and Herat provinces. During our visits, we
performed tests of inventory controls and found instances in which vehicles were not
included or properly accounted for in property records.

Accuracy of Records at the Coprin Lot
The vehicle storage contractor operating the Coprin Lot accounted for vehicles by
recording the VIN of each vehicle that arrived at the Coprin Lot in a spreadsheet. During
April 2008, we visited the Coprin Lot (see Figure 2) to perform two tests to determine
whether the vehicle storage contractor’s spreadsheet was accurate. The vehicle storage
contractor inventory controls were generally effective. Of the 129 VINs tested, 127
matched the vehicles in inventory at the Coprin Lot and the vehicle storage contractor
records. Of the two VINs that did not match, one belonged to a vehicle undergoing
maintenance at another facility; the other belonged to a vehicle found on the lot but not
listed in the spreadsheet.




                       Figure 2. Auditors Inspect Light Tactical
                              Vehicles at the Coprin Lot

Security of Records at Coprin Lot
We observed that the vehicle storage contractor representative stored the spreadsheet
with all ANP vehicle information on a highly portable flash drive without physical or
electronic security protection. While accessing this device, we noted that the flash drive
also contained numerous pictures, music files, and other personal information. In
addition, we could not confirm that backup copies of the spreadsheet were made. The
vehicle storage contractor’s single spreadsheet was uncontrolled and commingled with
personal information and therefore could be at risk for inappropriate access that would
conceal the theft or loss of vehicles. Furthermore, without backup, significant costs
would be incurred to reconstruct the Coprin Lot ANP vehicle inventory if the spreadsheet
fails or is lost. The CSTC-A Logistics Division was notified during our site visit in April
2008 that the vehicle storage contractor records were being kept on a thumb drive at


                                             6
Coprin Lot. In response to the preliminary discussion draft of this report, CSTC-A
agreed and stated that they had conducted a review of the vehicle storage contractor’s
accountability procedures on January 11, 2009, and concluded that the vehicle storage
contractor controls access to its records and makes monthly backups of all property
records.

Records for ANP Vehicles Throughout Afghanistan
To test if CSTC-A property records were accurate and all vehicles were accounted for,
we performed site visits at ANP facilities in five Afghan cities (see Appendix A, Scope
and Methodology). We recorded VINs from vehicles in use at each location (see
Figure 3) and later reconciled this information to property records prepared by the vehicle
storage contractor and relied on by CSTC-A.




                        Figure 3. Auditor Records VINs at the
                         Training Center in Mazar-e-Sharif

In total, we recorded and reconciled VINs for 174 vehicles in use at 7 ANP facilities
throughout Afghanistan. Table 1 presents the results of our site visits.




                                            7
             Table 1. Accuracy of CSTC-A Property Records by Facility
                                                                      VINs
            ANP Facility                    City          Recorded           Not in Records
1. Regional Training Center North
                                        Mazar-e-Sharif         13                   0
2. Joint Regional Command Center
3. Joint Regional Command Center East   Gardez                 12                   0
4. Regional Headquarters                Kandahar               82                   2
5. Regional Headquarters
                                        Herat                  39                   2
6. Border Police
7. Kabul City Police Command            Kabul                  28                   3
   Total                                                      174                   7


The official property records at three of the seven facilities were not complete, and
therefore, not reliable.

Conclusion
We found that CSTC-A relied on contractors to maintain accountability for the vehicles
destined for the ANP. However, the contractor property records were not always
accurate and therefore, CSTC-A could not account for every vehicle received. To
improve accountability, CSTC-A should ensure that the VINs are recorded on the
DD Forms 250 when the vehicles are accepted and that a reconciliation be performed
between the VINs recorded on the DD Forms 250 and the VINs physically located on the
vehicle. This reconciliation should be performed at the Coprin lot and at each of the
ANP facilities. Greater efforts to improve record keeping for vehicles from receipt in
Afghanistan through transfer to the ANP will prevent the use of scarce ASF funds for
replacement purchases, minimize loss of sensitive equipment to criminal elements, and
promote the ANP security mission.

Management Actions
In response to a discussion draft of this report, CSTC-A officials informed us of actions
they have taken, or plan to take, to improve accountability for vehicles obtained for the
ANP. Specifically, CSTC-A now obtains the VIN for each vehicle purchased and adds it
to the DD Form 250; has drafted standard operating procedures for the proper
accountability for all vehicles transported to Kabul; and reconciles contractor invoices for
all vehicles received at the Coprin Lot to the vehicle shipping documents. Finally,
CSTC-A officials performed a 100-percent inventory of vehicles in the Coprin Lot on
March 2, 2009. The inventory consisted of verifying each vehicle’s VIN against Coprin
Lot’s property book records. According to CSTC-A, no discrepancies were noted, and all
vehicle VINs were reconciled with the property book.




                                                 8
Recommendations, Management Comments, and Our
Response
A. We recommend that the Commanding General, Combined Security Transition
Command-Afghanistan:

       1. Mandate that all current and future vehicle contracts require the
contractor to list vehicle identification numbers on the DD Form 250. In addition,
for each vehicle purchased, provide the corresponding DD Form 250 to Combined
Security Transition Command-Afghanistan officials to ensure every vehicle
purchased is received at the Coprin Lot.

CSTC-A Comments
The CSTC-A Deputy Commanding General partially agreed and stated that currently the
contractor does not prepare the DD Form 250; however, the CSTC-A Logistics Division
receives vehicle identification numbers for all purchased vehicles and records the
numbers on the DD Form 250. The CSTC-A Deputy Commanding General further stated
that, effective June 2009, CSTC-A will record VINs in a tracking database.

Our Response
Although the CSTC-A Deputy Commanding General only partially agreed with the
recommendation, comments received from CSTC-A satisfied the intent of the
recommendation. We consider CSTC-A’s comments responsive, and no further
comments are required.

       2. Perform a 100-percent physical inventory of vehicles currently in the lot,
using U.S. Government and vehicle storage contractor personnel.

CSTC-A Comments
CSTC-A’s Deputy Commanding General agreed and stated that an inventory was
conducted in March 2009, and that no discrepancies were noted.

Our Response
We consider CSTC-A’s comments responsive.

       3. Develop and implement standard operating procedures at the Coprin Lot
to properly account for all equipment under U.S. Government control in accordance
with DoD Instruction 5000.64. At a minimum, the procedures should:

               a. Require U.S. Government personnel to verify that receiving and
distribution information in the vehicle storage contractor-provided property
records is accurate and complete.




                                          9
CSTC-A Comments
The CSTC-A Deputy Commanding General agreed and stated that the contractor at
Coprin Lot provides the CSTC-A Logistics Division the DD Forms 250 for all vehicles
received at Coprin Lot. The CSTC-A Logistics Division reconciles the DD Forms 250 to
a receivables database prior to submitting the forms to the CSTC-A contracting office for
processing and closeout.

              b. Require the reconciliation of the vehicle identification number on
each vehicle delivered to the Coprin Lot to the DD Form 250 used to authorize
payment for the vehicle.

CSTC-A Comments
The CSTC-A Deputy Commanding General agreed and stated that the CSTC-A Logistics
Division reconciles all VINs delivered to Coprin Lot to the corresponding DD Form 250.

              c. Control access to the property accountability records for vehicles
to prevent unauthorized changes, and make timely backups of property record
information.

CSTC-A Comments
The CSTC-A Deputy Commanding General agreed and stated that CSTC-A conducted a
site survey of the vehicle storage contractor’s accountability procedures. According to
the CSTC-A Deputy Commanding General, the vehicle storage contractor controls access
to records and makes monthly backups of all property record information, submitting a
copy to the CSTC-A Logistics Division.

Our Response
We consider CSTC-A’s comments on all parts of Recommendation A.3. responsive.




                                           10
Finding B. Receiving and Inventory Controls
for Radios and Computers
CSTC-A did not have complete and reliable property records for radios and computers
purchased for the ANP. CSTC-A had not implemented receiving and inventory controls
to ensure accountability for all radios and computers purchased for the ANP. As a result,
the DoD has no assurance that radios and computers purchased for the ANP were
received, or that ANP units received the quantity or type of equipment ordered.

Warehouse Operation
Warehouse 15 in Kabul is the primary receiving and storage location for radios,
computers, and related communication equipment purchased with ASF funds and
intended for the ANP. The warehouse is operated by a DOD contractor (U.S. Army
Communications-Electronics Command contract DAAB07-03-D-B013, task order 100)
who is responsible for equipment accountability at the warehouse. The contractor task
execution plan provided by the U.S. Army Communications-Electronics Command
states:

                Upon arrival of the equipment at the Combined Security Transition
                Command-Afghanistan (CSTC-A) storage facility in Afghanistan, the
                contractor team will inventory the items received and check them
                against the list of equipment shipped. During the contractor’s visual
                inspection of the equipment, damage to the equipment will be noted
                and each piece will be tested to ensure the product is in its intended
                working condition.       Contractor-Acquired Property (CAP) items
                damaged in shipping will be returned to the respective vendor for
                replacement. The contractor will record serial numbers for equipment
                marked with serial numbers. Equipment will then be assigned to secure
                storage inside the warehouse pending deployment to various locations
                in Afghanistan as directed by CSTC-A.

                The contractor operators will attach a unique serial number to the
                equipment. A number will be assigned for each major end item (e.g.,
                radio). ANP serial numbers, item descriptions and equipment serial
                numbers will be recorded. Information captured during the receipt
                process will be entered into the inventory database. This information
                will also be provided to the Security Assistant Management Directive
                (SAMD) U.S. Army Communications-Electronics Command.

Receiving Controls for Radios
CSTC-A has used ASF funds of at least $15.9 million to purchase radios and related
equipment delivered to Warehouse 1. According to the contractors that operate
Warehouse 1, once the radios are received, the contractor performs power tests on the

5
  CSTC-A receives and stores radios and computers intended for the ANP in two warehouses in Kabul.
Although CSTC-A personnel refer to them as the Old Zahid Warehouse and the New Zahid Warehouse, in
this report we refer to these facilities as Warehouse 1 and Warehouse 2, respectively.



                                                 11
radios and records the radio serial numbers in the Master Equipment List (MEL). The
contractor then prepares the DD Forms 250 and delivers the documents to the CSTC-A
Communications Division for approval and signature, along with the updated MEL.
Copies of the DD Forms 250 are maintained by both the Communications Division and
contractor. However, the Communications Division personnel do not perform an
independent verification that all of the equipment listed on the DD Form 250 was actually
received. Such verification is required by the Federal Acquisition Regulation (FAR),
Subpart 46.4, “Government Contract Quality Assurance,” and Subpart 46.5,
“Acceptance.” Both FAR subparts state that U.S. Government representatives must be
available to verify the accuracy of each DD Form 250 submitted for payment.

Inventory Controls for Radios
The contractor maintains the MEL for ANP radios delivered to Warehouse 1. The MEL
satisfies the requirements for radio accountability as prescribed in the task execution plan
for contract DAAB07-03-D-B013, task order 100. To determine the accuracy of the
MEL, we performed inventory tests at ANP storage facilities in Kabul, as well as at
various ANP facilities in five Afghan cities: Mazar-e-Sharif, Gardez, Kandahar, Herat,
and Kabul.

Inventory Tests at Warehouse 1
We visited Warehouse 1 on April 12, 2008, to test the accuracy of the contractor’s radio
inventory records. We conducted a physical inventory of selected radios and reconciled
the physical invertory results to the data contained in the MEL as of March 20, 2008.
Table 2 provides the results of that reconciliation.

                            Table 2. Inventory Test Results at Warehouse 1
                                                      Units Reported in            Units in Inventory or
 Type of Communication Equipment1                      MEL Inventory               Recently Distributed2   Discrepancy
VHF* – GP360 Portable (Handheld)                             3,105                           3,105               0
VHF – GM360 Mobile (Vehicular)                                 657                             659               2
VHF – GP360 (Base Station)                                     205                             206               1
HF** – 2110 SSB Tcvr Unit (Manpack)                             65                              65               0
HF – NGT SRx Desktop Unit (Base
                                                                     4                          4               0
Station)
HF – NGT VR Mobile Kit (Vehicular)                                   4                          4               0
HF Mobile Antenna – NVIS                                             3                          3               0
HF Mobile Antenna – 9350 Auto Tune                                   2                          4               2
     Total                                                      4,045                       4,050               5
*
   Very high frequency.
**
   High frequency.
1
   All items were purchased under contract DAAB07-03-D-B013, task order 100.
2
   We reviewed hand receipts to verify the number of units recently distributed.


Although we only identified 5 radios not properly accounted for, DOD guidance requires
100 percent accountability for radios and related equipment. DOD 4100.39-M, “Federal
Logistics Information Systems Procedures Manual,” volume 10, table 61, November



                                                                12
2007, defines communication/electronic equipment as controlled inventory items having
a ready resale value or civilian application for personal possession and, therefore, subject
to theft. DoD Instruction 5000.64, “Accountability and Management of DoD-Owned
Equipment and Other Accountable Property,” November 2, 2006, requires a 100-percent
inventory accuracy rate for vulnerable property such as radios and related equipment.

Inventory Tests at ANP Facilities
In total, we selected 117 radios in use at 7 ANP facilities throughout Afghanistan and
reconciled the radio serial numbers to CSTC-A property records. In addition, we
determined whether the MEL accurately reported the location of each radio. Table 3
presents the results of our site visits.

                     Table 3. Inventory Test Results at ANP Facilities
                                                          Serial Numbers
                                                      of Radios    Missing    Entries With
                                                       Selected     From       Location
              ANP Facility                   City     at Facility   MEL         Errors
 1. Regional Training Center North
                                     Mazar-e-Sharif       34          1             31
 2. Joint Regional Command Center
 3. Joint Regional Command Center
                                     Gardez               11          8              2
    East
 4. Regional Headquarters            Kandahar             49         13             14
 5. Regional Headquarters
                                     Herat                14          3              4
 6. Border Police
 7. Kabul City Police Command        Kabul                 9          1              6
   Total                                                 117         26             57


We found that the official property records maintained by the contractor were not
accurate and, therefore, not reliable to use to account for ANP radios. Of the 117 radios
in our judgmental sample, 26 had serial numbers not listed in the MEL.

As shown in Table 3, the MEL did not accurately list the geographical locations for
57 radios. Those 57 radios were not in the location for which they were programmed.
Each radio is programmed by the contractor for use at a specific location and is useless if
delivered to an ANP unit or facility outside its programmed location. However, the
Ministry of the Interior (MoI) sometimes inadvertently distributed radios to locations
different from those officially designated by CSTC-A.

Radios distributed from Warehouse 1 did not always reach the intended destination.
CSTC-A officials stated that the Afghanistan Regional Security Integration Command
(ARSIC) communication offices were aware of incoming radio shipments since they
were sent notification of delivery times and intended destinations by e-mail; however,




                                               13
a communication disconnect may have occurred between the ARSIC communication
offices and the Regional Police Advisory Command mentors.6 During our site visits to
Mazar-e-Sharif and Herat, Regional Police Advisory Command mentors voiced concerns
that shipment delivery times were not always communicated, instructions for the intended
destination of radios were not always disseminated, and large shipments were extremely
difficult to reconcile by receiving unit. Advance notice of delivery times and intended
destinations to Regional Police Advisory Command mentors would lead to improved
oversight of the ANP radio distribution process and improved mentoring to ensure radios
reach their intended destination.

Contractor Use of Equipment Purchased With the ASF Fund
We observed, and the contractor warehouse manager confirmed, that the MEL is kept on
a laptop computer purchased with ASF funds and intended for the ANP. In total,
12 laptop computers purchased with ASF funds and intended for issue to the ANP are
currently being used by the contractor staff. CSTC-A has permitted the contractor to
issue ANP computers at Warehouse 1 to the contractor staff temporarily. This practice
sets a precedent that equipment planned for issue to the ANP can be used by the
U.S. Government or its contracted personnel. The task execution plan provided by the
U.S. Army Communications-Electronics Command for the contract specifically states
that “there is no government furnished equipment requirement for this proposed effort,”
meaning that the contractor is responsible for furnishing its own equipment.

Receiving and Inventory Controls for Computers
The CSTC-A Communications Division maintains and updates the information
technology equipment list. This list, created in April 2007 and documented in a
spreadsheet, is an inventory of desktop and laptop computers in storage awaiting
distribution to the ANP.

The CSTC-A Communications Division staff is present for the receipt of all
computer shipments to Warehouses 1 and 2. As computers are unloaded, every computer
serial number is scanned by barcode and uploaded into the inventory. The
Communications Division staff confirms that the number of computers received matches
the number of computers ordered in the contract. Before computers are distributed to the
ANP, the Communications Division staff must receive justification from MoI for the
requested computers. As the Communications Division distributes computers, the staff
updates the inventory, documenting who received each computer and the date. Although
the CSTC-A Communications Division staff follows the above procedures, there are no
formal standard operating procedures describing the processes needed to maintain
accountability for computers for the ANP. In addition, CSTC-A lacks plans for
distribution.

6
 Attached to each corps is an Afghanistan Regional Security Integration Command. There are five
ARSICs – North, South, East, Central, and West – that support the CSTC-A mission. Each ARSIC
comprises a Regional Police Advisory Command and a Regional Corps Advisory Command. The Regional
Police Advisory Command is responsible for training, coaching, and mentoring all organizations of the
ANP.



                                                 14
Physical Inventory of Computers in Storage
On April 12, 2008, we performed site visits to Warehouses 1 and 2 to perform physical
inventories of desktop and laptop computers. CSTC-A inventory records did not account
for all computers purchased with ASF funds for the ANP. The CSTC-A
Communications Division could not account for 89 ANP laptop computers.

We counted 576 desktop computers at Warehouse 1. That number agreed with CSTC-A
inventory records. We counted 593 laptop computers at the Warehouse 1 and
1,334 laptop computers at Warehouse 2 for a total of 1,927 laptop computers in
CSTC-A’s custody. According to CSTC-A inventory records, however, the warehouses
should have contained a total of 2,167 laptop computers. Therefore, our count revealed
that 240 laptop computers that were reported in CSTC-A records were missing from
storage. CSTC-A later provided documentation to prove that 151 of the 240 missing
computers had been issued, leaving 89 computers valued at approximately $126,000
unaccounted for. CSTC-A’s lack of accountability for ANP laptop computers may
contribute to further losses, theft, or duplicate purchases of laptop computers. We
notified the Director of the CSTC-A Communications Division about the 89 missing
computers on June 7, 2008.

Conclusion
CSTC-A provided inadequate oversight to fully account for each radio and computer
purchased with ASF funds and intended for the ANP. A significant loss of accountability
occurred because property records for radios and laptop computers were inaccurate and
retained only by contractors. Greater efforts to improve accountability for radios and
laptop computers from receipt in Afghanistan through transfer to the ANP will avoid the
use of scarce ASF funds for replacement purchases, minimize loss of sensitive equipment
to criminal elements, and promote the ANP security mission.

Management Actions
In June 2008, CSTC-A Communications Division officials directed the contractor staff to
begin using new procedures to resolve problems we identified in receipt and acceptance
of radios delivered to Warehouse 1. The contractor staff is now required to reconcile the
type and quantity of equipment received to items ordered, prepare the DD Forms 250,
and work with CSTC-A officials to inspect and verify all equipment was received.
CSTC-A staff then signs the DD Forms 250 at Warehouse 1. Finally, contractor staff
will distribute the DD Forms 250 as required and retain copies.

In response to a discussion draft of this report, CSTC-A informed us that radios are
typically issued by CSTC-A to the ANP at the regional level, whereas distribution at the
unit level remains an Afghan responsibility. Afghanistan logistics personnel receive
training on proper radio distribution methods from CSTC-A MoI mentors.




                                           15
Recommendations, Management Comments, and Our
Response
Revised Recommendation
As a result of management comments, we revised Recommendation B.2. to clarify our
intention that formal guidance is needed on the proper use of equipment purchased for
support of the Afghanistan Security Forces.

B.1. We recommend that the Commanding General, Combined Security Transition
Command-Afghanistan:

       a. Develop and implement standard operating procedures in accordance
with the FAR and DoD 5000.64 for:

            (1) property accountability for radios and laptop computers delivered
to Warehouses 1 and 2.

               (2) distribution of Afghanistan National Police radios, including a
notification system to communicate radio delivery times and instructions to all
responsible parties.

CSTC-A Comments
The CSTC-A Deputy Commanding General agreed and stated that the CSTC-A
Communications Division has developed and is adhering to standard operating
procedures to include Afghanistan National Police radio and laptop computer receipt and
issue. The CSTC-A Deputy Commanding General further stated that the CSTC-A
Communications Division will review the standard operating procedures to ensure they
are in accordance with the FAR and DoD Instruction 5000.64.

      b. Develop and implement controls to prevent the improper use of
equipment purchased with the Afghanistan Security Forces Fund.

CSTC-A Comments
The CSTC-A Deputy Commanding General agreed and stated that CSTC-A will
implement a program in June 2009 to track procurement, shipment, and receipt of all
defense articles issued to the Afghanistan Security Forces to further increase
accountability.

      c. Conduct a formal investigation to locate the 89 missing computers and
determine the cause for the discrepancy.

CSTC-A Comments
The CSTC-A Deputy Commanding General agreed and stated that CSTC-A will conduct
a formal investigation to determine the cause of the 89-computer discrepancy.



                                           16
Our Response
We consider CSTC-A’s comments on all parts of Recommendation B.1. responsive.

B.2. We recommend that the Commander, U.S. Central Command develop and
issue formal guidance on the proper use of equipment purchased for support of the
Afghanistan Security Forces to include computers and other electronic gear.

U.S. Central Command Comments
The Chief of Staff, responding for the Commander, USCENTCOM did not agree, stating
it was USCENTCOM’s opinion that the laptop computers in question are equipment that
belongs to, and is part of, the Afghanistan depots. The Chief of Staff further stated that
the contractors were hired to operate the depots until the Afghanistan National Police are
capable of taking responsibility for depot operations. Depot personnel will require the
use of the laptop computers to maintain operations.

Our Response
We consider USCENTCOM’s comments nonresponsive, and this recommendation
remains open. However, we revised the recommendation in our draft report to clarify our
position that clear guidance on the use of this equipment is required. The laptops in
question have not been transferred to the Afghanistan National Army and are still the
property of the U.S. Government. These laptops have been temporarily issued by the
contractor to its personnel using U.S. Army hand receipts. In addition, the contract task
execution plan provided by the U.S. Army Communications–Electronics Command
specifically states that “there is no government furnished equipment requirement for this
proposed effort.” USCENTCOM has stated this use is not improper but has not provided
formal guidance on proper use of the equipment.

We request that the Commander, USCENTCOM provide comments on the revised
recommendation by October 2, 2009.




                                            17
Finding C. Transfer of Equipment to the
Afghan Government
CSTC-A did not formally transfer vehicles, radios, or computers to the Government of
Afghanistan. CSTC-A transferred equipment to the ANP using U.S. Army forms that
were not designed to officially transfer ownership and accountability. Therefore, the
U.S. Government has not been officially relieved of accountability for equipment
provided to the ANP.

Vehicle Transfer
When the CSTC-A Logistics Division or the MoI requisitioned vehicles, the vehicle
storage contractor prepared the vehicles for delivery. The vehicle storage contractor used
the Department of the Army (DA) Form 2062, provided by CSTC-A, as a hand receipt to
transfer custody of the vehicles to the MoI. The contractor filled out all pertinent
information on the number of vehicles were being delivered, including their VINs, and
then provided the form to the Logistics Division for approval. After the Logistics
Division approved the form, the contractor had a MoI representative pick up the vehicles
and sign the last page of the DA Form 2062. At this point, the MoI had custody of the
vehicles. The DA Form 2062, however, is designed to transfer direct responsibility for
equipment among individuals within the U.S. Army, not to relieve the U.S. Government
of accountability for equipment issued to another nation. Army Regulation 735-5,
“Policies and Procedures for Property Accountability,” February 28, 2005, defines direct
responsibility as:

                 the obligation of a person to ensure all Government property for which
                 he or she has receipted, is properly used and cared for, and that proper
                 custody, safekeeping, and disposition are provided.                Direct
                 responsibility results from assignment as an accountable officer, receipt
                 of formal written delegation, or acceptance of the property on hand
                 receipt from an accountable officer.

The DA Form 2062 is not an appropriate document to transfer accountability for vehicles
from the U.S. Government to the Afghanistan Government. According to Army
Pamphlet 710-2-1, “Using Unit Supply System,” December 31, 1997, “hand receipt
holders are not considered accountable officers.”

Radio Transfer
The MoI provided CSTC-A with a list of the type and number of radios needed per
district. Using this list and authorization levels within the Tashkil,7 the CSTC-A
Communications Division determined how many radios were to be distributed and to
which ANP units. The final distribution list was sent to Warehouse 1 in Kabul, where the


7
 The approved Tashkil represents the aggregate of authorized equipment allocated to ANP units. The
equipment listed has been identified as the minimum required for gaining essential ANP operational
capabilities.


                                                   18
contractor programmed the radios for the district they were to be delivered to. After
programming, CSTC-A scheduled the radios for pickup by the MoI.

The contractor used the DA Form 3161, provided by CSTC-A, as a hand receipt to
transfer custody of radios to the MoI. This form is designed for issue and turn-in
transactions between a property book officer and hand receipt holder, not to relieve the
U.S. Government of accountability for equipment issued to another nation. The
DA Form 3161 is not an appropriate document to transfer accountability for radios from
the U.S. Government to the Afghan Government.

Computer Transfer
ANP computers were being issued to the MoI from Warehouse 1 on a DA Form 3161.
This is the same form used to issue radios. This form is designed for issue and turn-in
transactions between a property book officer and hand receipt holder. However,
accountability for this equipment does not transfer. Accordingly, the U.S. Government
remains accountable for all computers purchased with ASF funds issued to the ANP on
DA Form 3161.

Summary
Currently, CSTC-A has transferred only direct responsibility for vehicles, communication
equipment, and computers to the ANP. CSTC-A does not have procedures to officially
transfer accountability to the ANP. The U.S. Government is responsible to account for
property issued to the Government of Afghanistan on U.S. Army hand receipts. DoD
Instruction 5000.64 states that official release of accountability by authorized means is
required to transfer accountability to the Government of Afghanistan.

Management Actions
In a memorandum dated February 3, 2009, CSTC-A officials stated that they have
developed draft standard operating procedures for the formal transfer of accountability
for vehicles, radios, and computers to the ANP. According to CSTC-A officials, the
standard operating procedures establish a specific point of formal transfer to the ANP.

Recommendation, Management Comments, and Our
Response
C. We recommend that the Commanding General, Combined Security Transition
Command-Afghanistan, with advice and assistance from the Afghanistan Ministry
of Interior, finalize and implement procedures for the formal transfer of
accountability for vehicles, radios, and computers to the Afghanistan National
Police. The procedures should conform to Army Regulation 735-5 and Army
Pamphlet 710-2-1.

CSTC-A Comments
The CSTC-A Deputy Commanding General agreed and stated that, effective January 11,
2009, the Ministry of Interior Form 9 was used to transfer vehicles and radios to the


                                            19
ANP. The CSTC-A Deputy Commanding General further stated that this procedure is in
accordance with Ministry of Interior logistics policy, Army Regulation 735-5, and Army
Pamphlet 710-2-1.

Our Response
We consider CSTC-A’s comments responsive.




                                          20
Appendix A. Scope and Methodology
We conducted Phase III of this performance audit in Afghanistan and the United States
from December 2007 through May 2009, in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our audit
objectives.

We visited U.S. Army Tank – Automotive and Armaments Life Cycle Management
Command in Warren, Michigan, to understand its processes for obtaining vehicles with
ASF funds obligated under Public Laws 109-13, 109-234, and 109-289, and obtain
documentation on vehicles shipped to Afghanistan. We contacted the Defense Contract
Management Agency in Alexandria, Virginia; Warren, Michigan; Singapore; and Kabul
to understand the agency’s role in the shipment of vehicles to Afghanistan. Finally, we
contacted officials from the Communications-Electronics Command to determine the
methods and documentation used to provide CSTC-A with communication equipment
using ASF funds.

We reviewed various DoD instructions, directives, and manuals and U.S. Army guidance
that provide direction and procedures to ensure accountability for equipment. We also
reviewed CSTC-A Operations Orders and the CSTC-A Campaign Plan, May 7, 2007.

In Afghanistan, we conducted fieldwork from February through June 2008. We
performed site visits of ANP units in the five provinces listed in the table below.

                                    ANP Facilities Visited
                ANP Facilities                City         Province   Date of Site Visit
     1. Regional Training Center North
                                          Mazar-e-Sharif   Balkh      May 2, 2008
     2. Joint Regional Command Center
     3. Joint Regional Command Center
                                          Gardez           Paktia     May 9, 2008
     East
     4. Regional Headquarters             Kandahar         Kandahar   May 19, 2008
     5. Regional Headquarters
                                          Herat            Herat      May 25, 2008
     6. Border Police
     7. Kabul City Police Command         Kabul            Kabul      June 3, 2008

These units used ASF-funded equipment and were relatively safe to visit. We also
visited local depots in Kabul that were used for storage of ANP equipment. At the five
ANP units, we selected and recorded the VINs and serial numbers of vehicles and radios
in use at each unit. We then reconciled this information to CSTC-A vehicle and radio
distribution records to determine whether the computers, vehicles and radios were
included in CSTC-A property records. Finally, we interviewed U.S. Government and
contractor officials regarding accountability and equipment turnover procedures.


                                             21
Scope Limitation
Our audit steps validated only on-hand inventory data. We did not verify receipts of
equipment against the amount of equipment ordered. If any ordered equipment was not
received, our audit methodology would not have detected the resulting inventory
shortages.

Use of Computer-Processed Data
We used Excel spreadsheets created by CSTC-A, the contractor, and the vehicle storage
contractor to test CSTC-A accountability for equipment intended for the ANP. We tested
the reliability of these data by recording VINs and serial numbers of items located at
ANP units and reconciling them to information in CSTC-A data. We concluded that the
spreadsheet data were inaccurate because many computers, vehicles and radios at ANP
units were not properly included in CSTC-A property records.




                                         22
Appendix B. Prior Coverage
During the last 5 years, the Government Accountability Office (GAO) and the DoD IG
have issued 10 reports discussing accountability for goods and services provided to the
Iraq and Afghanistan Security Forces. Unrestricted GAO reports can be accessed over
the Internet at http://www.gao.gov. Unrestricted DoD IG reports can be accessed at
http://www.dodig.mil/audit/reports.

GAO
GAO Report No. GAO-08-661, “Afghanistan Security: Further Congressional Action
May Be Needed to Ensure Completion of a Detailed Plan to Develop and Sustain
Capable Afghan National Security Forces,” June 2008

GAO Report No. GAO-07-711, “Stabilizing Iraq: DoD Cannot Ensure That U.S.-Funded
Equipment Has Reached Iraqi Security Forces,” July 2007

GAO Report No. GAO-07-582T, “Operation Iraqi Freedom: Preliminary Observations on
Iraqi Security Forces’ Logistical Capabilities,” March 2007

GAO Report No. GAO-07-308SP, “Securing, Stabilizing, and Rebuilding Iraq: Key
Issues for Congressional Oversight,” January 2007

GAO Report No. GAO-05-575, “Afghanistan Security: Efforts to Establish Army and
Police Have Made Progress, but Future Plans Need to Be Better Defined,” June 2005

DoD IG
DoD IG Report No. D-2009-050, “Distribution of Funds and the Validity of Obligations
for the Management of the Afghanistan Security Forces Fund Phase II,” February 5, 2009

DoD IG Report No. D-2009-031, “Afghanistan Security Forces Fund Phase III-Air Force
Real Property Accountability,” December 29, 2008

DoD IG Report No. D-2008-026, “Management of the Iraq Security Forces Fund in
Southwest Asia - Phase III,” November 30, 2007

DoD IG Report No. D-2008-012, “Distribution of Funds and Validity of Obligations for
the Management of the Afghanistan Security Forces Fund-Phase I,” November 5, 2007

DoD Report No. IE-2007-001, “Interagency Assessment of Afghanistan Police Training
and Readiness,” November 14, 2006*




*
 The Inspectors General of the Department of State and Department of Defense jointly conducted this
assessment.


                                                  23
Appendix C. Other Matters of Interest
                        Property Books at
            Afghanistan National Police Regional Units
ANP units were not able to provide evidence that they were keeping property books
showing serialized vehicles, radios, or laptop computers. A contractor* was contracted to
train MoI personnel in property management. The training covered the following topics:

    x   Assigning Responsibilities for Property. This training module instructed the
        police forces in what documents they were to use in a property book and for hand
        receipts. The training also introduced requirements in issuing property on hand
        receipts.

    x   Hand Receipt Procedures. This training module described hand receipt
        requirements and their proper use, including that hand receipts are required
        whenever weapons, radios, vehicles, and other specified equipment are issued.

    x   Property Book Pages (MoI ANP Forms 3328/3328-1). This training module
        provided information regarding maintaining the required property book.

    x   Inventory Management. This training module provided information regarding
        types of inventories, frequency, and how to use the property book records to
        conduct an accountability check of equipment.

    x   Lateral Transfer Procedures. This training module provided information
        regarding maintaining accountability for equipment that is moved from one unit
        to another.

We found that none of the ANP organizations visited during our site visits (see
Appendix A, Scope and Methodology for locations) had established property books
tracking equipment by serial number, in accordance with the MoI Logistics Management
Policy. If the ANP is unable to maintain effective property records, CSTC-A will not
accomplish its mission to establish a self-sustaining, enduring security capability in
Afghanistan, and ASF funds have not been efficiently used.




*
  The contractor is a training, simulation, and government services company. The contractor provides a
range of comprehensive services internationally on behalf of the U.S. Government or directly to other
governments under license by the U.S. Department of State.


                                                   24
Appendix D. Inventory Control Guidance
Section 524, Title 40, United States Code
Section 524, title 40, United States Code (40 U.S.C. 524) requires that executive agencies
“maintain adequate inventory controls and accountability systems for property under its
[the executive agencies] control.”

DoD Guidance
DoD Instruction 5000.64, “Accountability and Management of DoD-Owned
Equipment and Other Accountable Property,” November 2, 2006, establishes policy
and procedures to comply with 40 U.S.C. 524. It states that “all persons entrusted with
the management of Government property shall possess and continually demonstrate an
appropriate level of competence and proficiency in property accountability and
management.” In addition, “accountable property records shall be established for all
property purchased, or otherwise obtained, having a unit acquisition cost of $5,000 or
more … and assets that are sensitive or classified. Property records will be kept current
and shall provide a complete trail of all transactions, suitable for audit.” Finally, the
instruction also provides that “accountable property records shall reflect current status
and locations . . . until the Component is otherwise formally relieved of accountability by
authorized means.”

U.S. Army Guidance
Army Pamphlet 710-2-1, “Using Unit Supply System,” December 31, 1997, states that
“hand receipts are required whenever property book or durable items are issued. The
hand receipt lists the property that has been issued. The signature of a person on a hand
receipt establishes direct responsibility.” Further, it states that “hand receipt holders are
not considered accountable officers.” The pamphlet also governs the use of DA
Form 2062, “Hand Receipt/Annex Number,” and DA Form 3161, “Request for Issue or
Turn-in” as hand receipts.

Army Regulation 735-5, “Policies and Procedures for Property Accountability,”
February 28, 2005, defines direct responsibility as “the obligation of a person to ensure
all Government property for which he or she has receipted, is properly used and cared
for, and that proper custody, safekeeping, and disposition are provided. Direct
responsibility results from assignment as an accountable officer, receipt of formal written
delegation, or acceptance of the property on hand receipt from an accountable officer.”




                                             25
U.S. Central Command Comments


                                            Final Report
                                             Reference




                                          Revised




                 Click to add JPEG file




                                26
Combined Security Transition Command-Afghanistan
Comments




                  Click to add JPEG file




                                 27
Click to add JPEG file




               28
Click to add JPEG file




               29
Click to add JPEG file




               30
